No. 20-1374

In The
CVS PHARMACY, INC., ET AL.,
Petitioners,
v.
JOHN DOE, ONE, ET AL.,
Respondents.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRIEF OF AMERICA’S HEALTH INSURANCE
PLANS AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS
Julie Simon Miller
Thomas M. Palumbo
AMERICA’S HEALTH
INSURANCE PLANS
601 Pennsylvania
Avenue, NW
South Building, Suite 500
Washington, DC 20004

Pratik A. Shah
Counsel of Record
AKIN GUMP STRAUSS
HAUER & FELD LLP
2001 K Street, NW
Washington, DC 20006
(202) 887-4000
pshah@akingump.com
Aileen M. McGrath
AKIN GUMP STRAUSS
HAUER & FELD LLP
580 California Street,
Suite 1500
San Francisco, CA 94104

Counsel for Amicus Curiae

i
TABLE OF CONTENTS
INTEREST OF AMICUS CURIAE............................. 1
INTRODUCTION
AND
SUMMARY
OF
ARGUMENT .......................................................... 4
ARGUMENT ................................................................ 8
A. Extending Disparate Impact Liability To
Facially Neutral Health Plans Will
Interfere With Network-Based Coverage,
A Critical Feature Of Nearly All Health
Plans. ................................................................. 9
1. Provider Networks Manage Costs And
Improve Patient Care. ................................. 9
2. Networks Cannot Function Properly If
Plan Members Can Alter Plan
Benefits. ..................................................... 19
B. The Risk Of Disparate Impact Liability
Will Undermine Medical Management
Tools, Leading To Increased Costs And
Heightened Risk To Patients. ........................ 20
1. Medical Management Techniques
Ensure That Patients Receive Safe
And Affordable Care. ................................. 20
2. Inviting Disparate Impact Challenges
To Medical Management Techniques
Will Harm Plan Members And
Increase Costs. ........................................... 24
CONCLUSION .......................................................... 27

ii
TABLE OF AUTHORITIES
STATUTES AND REGULATIONS:
Rehabilitation Act of 1973,
29 U.S.C. § 794 .......................................... passim
42 C.F.R.
422.112(a)(3) ........................................................ 9
OTHER AUTHORITIES
AHIP, Ask the AHIP Experts: Why Provider
Networks are Important (Dec. 2018)................. 16
AHIP, Key Results of Industry Survey on
Prior Authorization (June 2020) ....................... 21
AHIP, Milliman Report: High-Value
Healthcare Provider Networks (July
2014) .................................................................. 15
AHIP, The Value of Medicaid Managed
Care: Making Drugs More Affordable for
States and Taxpayers (Feb. 2020)..................... 15
BlueCross BlueShield of North Carolina,
New BCBSNC Products Offer Cost
Savings for Individuals and Employers
(Dec. 12, 2012) ................................................... 14
Centers for Medicare & Medicaid Servs.,
Trump Administration Continues to Keep
Out-of-Pocket Drug Costs Low for Seniors
(Jul. 29, 2020) .................................................... 15

iii
Congressional Budget Office, Key Issues in
Analyzing Major Health Insurance
Proposals (Dec. 2008) ........................................ 26
Dowell, Deborah, Tamara Haegerich &
Roger Chou, CDC Guideline for
Prescribing Opioids for Chronic Pain –
United States 2016 (Mar. 18, 2016) .................. 22
Gruber, Jonathan & Robin McKnight,
Controlling Health Care Costs Through
Limited Network Insurance Plans:
Evidence from Massachusetts State
Employees, 8 AM. ECON. J. ECON. POLICY
219 (May 2016) .................................................. 18
HealthCare.gov, Health Insurance Plan and
Network Types: HMOs, PPOs, and more
(last visited Sept. 7, 2021)................................. 11
HealthCare.gov, See Plans & Prices (last
visited Sept. 7, 2021) ......................................... 18
Helfand, Duke, A Shift Toward Smaller
Health Networks, LOS ANGELES TIMES
(Apr. 3, 2011) ..................................................... 14
Ho, Kate & Robin S. Lee, Equilibrium
Provider Networks: Bargaining and
Exclusion in Health Care Markets, 109
AM. ECON. REV. 473 (2019)................................ 13

iv
Johnson, Garret et al., Recent Growth in
Medicare Advantage Enrollment
Associated With Decreased Fee-ForService Spending In Certain U.S.
Counties, 35 HEALTH AFFAIRS 1707
(Sept. 2016)........................................................ 14
Kaiser Family Found., 2020 Employer
Health Benefits Survey (last visited Sept.
7, 2021) .............................................................. 11
Kumar, Amit et al., Comparing post-acute
rehabilitation use, length of stay, and
outcomes experienced by Medicare fee-forservice and Medicare Advantage
beneficiaries with hip fracture in the
United States: A secondary analysis of
administrative data, PLOSMED (June
2018) .................................................................. 17
Letter from A. Gavil of FTC to Ctrs. for
Medicare & Medicaid Servs. (Mar. 7,
2014) ............................................................ 13, 16
Lyu, Heather, Overtreatment in the United
States, PLOS ONE (Sept. 6, 2017) ..................... 26
Mandal, Aloke K. et al., Value-Based
Contracting Innovated Medicare
Advantage Healthcare Delivery and
Improved Survival, 23 AM. J. MANAGED
CARE 41 (Jan. 2017) .......................................... 17

v
McKinsey Ctr. for U.S. Health Sys. Reform,
Hospital networks: Configurations on the
exchanges and their impact on premiums
(Dec. 14, 2013) ................................................... 14
MedPac, Report to the Congress: Medicare
Payment Policy (Mar. 2021) ............ 13, 14, 19, 23
Morrisey, Michael A., Competition in
Hospital and Health Insurance Markets:
A Review and Research Agenda, 36
HEALTH SERVS. RSCH. 191 (2001)...................... 13
National Ass’n of Ins. Comm’rs, Health
Benefit Plan Network Access and
Adequacy Model Act (2015) ............................... 10
Pharmaceutical Care Mgmt. Ass’n, MailService and Specialty Pharmacies Will
Save More than $300 Billion for
Consumers, Employers, and Other Payers
Over the Next 10 Years (Sept. 2014) ................. 16
Shepherd, Joanna, Selective Contracting in
Prescription Drugs: The Benefits of
Pharmacy Networks, 15 MINN. J. L., SCI.
& TECH. 1027 (2014) .................................... 12, 15
Timbie, Justin W. et al., Medicare
Advantage and Fee-For-Service
Performance on Clinical Quality and
Patient Experience Measures:
Comparisons from Three Large States, 52
HEALTH SERVS. RSCH. 2038 (Dec. 2017) ........... 17

vi
U.S. Dep’t of Health and Human Servs.,
Observations on Trends in Prescription
Drug Spending (Mar. 2016) .............................. 25
U.S. Dep’t of Justice, Federal Indictments &
Law Enforcement Actions in One of the
Largest Health Care Fraud Schemes
Involving Telemedicine and Durable
Medical Equipment Marketing
Executives Results in Charges Against 24
Individuals Responsible for over $1.2
Billion in Losses (Apr. 9, 2019) ......................... 22
U.S. Nat’l Library of Med., Managed Care
(last visited Sept. 7, 2021)................................. 10
Wakely Consulting Grp., LLC, The Value of
Integrated Pharmacy Benefits in
Medicaid Managed Care (June 15, 2020)......... 15

INTEREST OF AMICUS CURIAE1
America’s Health Insurance Plans, Inc. (“AHIP”)
is the national trade association representing the
health insurance community. AHIP advocates for
public policies that expand access to affordable health
care coverage for all Americans through a competitive
marketplace that fosters choice, quality, and
innovation. Along with its predecessors, AHIP has
over 60 years of experience in the industry.
AHIP has participated as amicus curiae in other
cases to explain the practical operation and impacts of
the Affordable Care Act (ACA) on health insurance
providers and the plans they offer. See, e.g., California
v. Texas, Nos. 19-840, 19-1019 (U.S. May 13, 2020);
Maine Cmty. Health Options v. United States, Nos. 181023, 18-1028, 18-1038 (U.S. Sept. 6, 2019); King v.
Burwell, No. 14-114 (U.S. Jan. 28, 2015). Likewise
here, AHIP seeks to provide the Court with its deep
expertise and experience regarding the operation of
health plans and benefit design.
AHIP condemns discrimination in all its
pernicious forms and supports the nondiscrimination
provisions incorporated in Section 1557 of the ACA.
AHIP believes that every American deserves
affordable health care, regardless of race, color,
national origin, sex, gender identity, sexual
orientation, age, or disability. AHIP’s members work
with health care leaders to remove barriers that
1 This brief is filed with the written consent of all parties.
No counsel for either party authored this brief in whole or in part,
nor did any party or other person or entity other than amicus
curiae, its members, or its counsel make a monetary contribution
to the brief’s preparation or submission.

(1)

2
impede health care access for all Americans, including
those living with HIV/AIDS.
But expanding the Rehabilitation Act to permit
disparate impact lawsuits against health plans will
instead diminish the public’s access to affordable,
quality health care. Unless expressly cabined to
exclude the health plan context, reading a disparate
impact cause of action into section 504 of the
Rehabilitation Act—as Respondents ask the Court to
do—will create significant uncertainty around many
aspects of health care and health plan coverage.
Health care and health plan benefits often apply
differently to individuals with disabilities and
individuals
without
disabilities—a
natural
consequence of the fact that the two groups frequently
have different medical needs. Indeed, each enrollee in
a health plan is an individual with different needs in
any given year. Yet under Respondents’ proposed
approach, these differences can be the basis for
liability under the ACA. The effect will be to reduce
the affordability, availability, and quality of health
plans and their benefits—contrary to the ACA’s (and
AHIP’s) goal of enhancing public health and access to
health care.
If the Ninth Circuit’s decision is affirmed—in
whole or in part—the new widespread availability of a
disparate impact cause of action will invite lawsuits
based on commonplace benefit design tools, many of
which may affect an enrollee with a particular medical
condition (whether a disabled individual or not)
differently from another individual enrollee with a
different medical condition. Such lawsuits could

3
conceivably put at risk commonplace benefit designs
including (among other things) networks of
participating physicians and other health care
providers, patient copayments, and drug formulary
lists and tiering. The resulting threat of disparate
impact liability will have deleterious consequences for
patient care, affordability, patient choice, and the
stability of the health care system. AHIP’s perspective
will provide the Court with a comprehensive
understanding of these sweeping ramifications.

4
INTRODUCTION AND SUMMARY OF
ARGUMENT
Discrimination is wrong, particularly when it
denies equal health care access to vulnerable groups.
AHIP and its members work to improve the health of
all Americans, including the disabled and those living
with HIV/AIDS. AHIP supports efforts—including
legislative, judicial, and voluntary industry
initiatives—to eliminate discrimination and remove
impediments to safe, effective, and affordable health
care.
But reading a disparate impact cause of action
into section 504 of the Rehabilitation Act and, by
extension, into the ACA—at least without restricting
its reach to health plans—will not improve health care
for vulnerable Americans. Instead, this novel liability
theory will impair the availability of affordable, highquality, patient-focused health plan coverage. The
result will be the same regardless of whether the
Court expressly ratifies disparate impact claims
against facially neutral health plans. Any approach
that opens the door to plaintiffs seeking to mandate
access to what a court deems “effective treatment”—
the linchpin of the Ninth Circuit’s decision (Pet. App.
16a)—will undermine the affordability and quality of
coverage millions of Americans rely upon and have
come to expect.
A decision embracing the Ninth Circuit’s
reasoning, in whole or in part, will turn topsy-turvy
critical
tools—like
network
design,
medical
management, and evidence-based patient care
programs—that health insurance providers use to

5
promote safety and quality, and to drive value and
savings for enrollees, employers, states, and
taxpayers. These facially neutral tools, as commonly
incorporated into benefit plans, necessarily have
different effects among enrollees—regardless of
whether they are disabled or not. But if those
differences could create exemptions from plan
policies—as would potentially follow from a Court
decision broadly embracing a disparate impact cause
of action under the Rehabilitation Act—the foundation
of many aspects of health plan benefit design will
crumble. The result: increased health care costs,
negative impacts on patient choice, and diminished
patient care.
The district court identified these possible
ramifications. While acknowledging “the struggles
individuals with HIV/AIDS continue to experience in
their daily lives” (Pet. App. 39a), the district court
recognized that Respondents sought to “change the
terms of their benefit plan.” Id. at 42a. That judicially
mandated “rewriting,” in the guise of a disparate
impact remedy, would be “virtually unworkable” for
the plan. Id. The district court also cautioned that the
“logical extension of Plaintiffs’ discrimination
challenge could threaten the basic structure” of health
maintenance organization (HMO) and preferred
provider organization (PPO) managed-care health
plans. Id. HMOs and PPOs are able to provide
comprehensive coverage at favorable rates by
directing enrollees to a defined set of in-network
physicians. If plan members could “avail themselves
of out-of-network providers at in-network rates by
contending that in-network care is inferior for any

6
particular disability, then the basis of the HMO/PPO
model would be undermined.” Id. at 43a.
That prediction risks becoming reality if this
Court sanctions the Ninth Circuit’s approach.
Although the specific facts at issue involve a plan’s use
of specialty mail-order pharmacies for certain drugs,
reading a disparate impact cause of action into section
504—without limiting such claims in the unique
health plan context—could permit challenges to
various other benefit-design features.
AHIP highlights here as examples two such
common plan features: network design and medical
management. Network design is a key way that
health insurance providers differentiate their
offerings, and give employers and enrollees a menu of
plan options to suit their particular circumstances. A
health insurance provider may offer plans with
networks of varying size (some narrower and some
broader); some plans may, and others may not, provide
reimbursement for services received out-of-network.
Based on those varying options, purchasers of
coverage (employers, individuals, or other payers)
choose a plan based on their needs (medical and
financial). Yet all the networks must comply with a
vast array of state and federal laws and regulations
that impose stringent requirements on access to and
the adequacy of such networks. Medical management
includes various tools rooted in evidence-based
medicine that prioritize safer, less costly treatments
over riskier, more expensive approaches. For both
networks and other tools, health insurance providers
offer enrollees exemption processes that consider both

7
individualized patient needs and evidence-based
treatment options.
Both techniques reflect a profound shift away
from the practices of the 1960s, when health care in
this country was offered predominately on a fee-forservice basis—a model that experience has since
shown incentivizes volume over quality of care. Since
the 1980s, health care in our country has shifted to
prioritize quality of care, patient outcomes, and
affordability. Health insurance providers have helped
achieve those ends by designing network-based
managed care and leveraging other innovative
solutions.
Construing the Rehabilitation Act to permit
disparate impact challenges without limitation risks
unravelling those innovations. If directed to health
plans, disparate impact challenges could seek to
transform network-based plans into non-networkbased plans; alter cost-sharing tiers for specialty
pharmacy products; expand drug formularies; and
curtail the use of protocols that prioritize cost-effective
treatments. The result will be increased health care
costs—one of the biggest problems facing our Nation
today—fewer choices and deteriorating patient care.
These effects will manifest even if the Court does
not expressly extend disparate impact liability under
section 504 to include challenges to health plans
specifically.
After all, this very case involves
prescription drug plan benefits. This case therefore is
unlike others where the Court might be inclined to
announce a general rule and leave it to other courts to
decide when and how that rule applies. To avoid these

8
cascading consequences for hundreds of millions of
Americans, this Court should reverse the Ninth
Circuit’s judgment or, at a minimum, clarify that any
disparate impact liability does not extend to the health
plan context.
ARGUMENT
Construing the ACA to permit disparate impact
claims in health plan cases threatens serious, farreaching consequences. If section 504’s reach is
expanded to permit disparate impact claims without
limitation, plaintiffs will seek to challenge facially
neutral health plans—like the prescription drug plan
at issue in the underlying case—for not providing
“effective treatment” to members with disabilities.
Pet. App. 14a. If successful, these lawsuits will
effectively rewrite the terms of those plans. As the
district court recognized, the proliferation of such
disparate impact cases will endanger many core
aspects of health care plan design and management
that enhance affordability, patient choice, and quality
of care. AHIP reinforces the district court’s warning
here by describing several health insurance program
elements that an untethered reading of section 504
will undermine—to the detriment of the health care
industry, employers (including small businesses), and
all Americans.

9
A.

Extending Disparate Impact Liability
To Facially Neutral Health Plans Will
Interfere
With
Network-Based
Coverage, A Critical Feature Of Nearly
All Health Plans.
1. Provider Networks Manage Costs
And Improve Patient Care.

Over the last several decades, health insurance
providers and employers have explored and
implemented a range of strategies designed to improve
efficiency, clinical effectiveness, and value in the
provision of health care. Key among those strategies
has been the creation of network-based managed care
that provides individuals and families access to health
care providers of all types, including specialty care
providers, hospitals, pharmacies, and outpatient
services.
a. The central feature of network-based benefit
design is a vetted network of medical providers who
contract with a health insurance provider to provide
services to plan members at agreed-upon rates.
Coverage (or level of reimbursement) depends on
whether the member uses in-network or out-ofnetwork providers. Plan members have the ability
through various exceptions or appeals processes to
obtain care from an out-of-network provider at innetwork rates in appropriate circumstances.2
2 See, e.g., 42 C.F.R. 422.112(a)(3) (providing that a
Medicare Advantage plan “arranges for specialty care outside of
the plan provider network when network providers are
unavailable or inadequate to meet an enrollee’s medical needs”);

10
Managed care networks have proven to be a
powerful tool through which health plans can obtain
lower prices from providers and higher quality care for
their members. At the same time, these networks
must comply with detailed state and/or federal
network adequacy standards intended to ensure that
individuals and families have adequate access to a
wide spectrum of specialized medical providers and
services.
Virtually all private health benefit plans—
including private plans in public programs such as
Medicare and Medicaid—use provider networks to
deliver health care benefits and services. As described
below, the most common types of networks are
managed care plans, high-value provider networks,
and pharmacy benefit plans.
Managed care plans. Managed care plans like
HMOs and PPOs rely on networks of contracted
providers to deliver affordable, high-quality patient
care.3 PPOs, the most common of these plans, provide
subscribers with access to both in-network and out-ofNational Ass’n of Ins. Comm’rs, Health Benefit Plan Network
Access and Adequacy Model Act, § 5(c) (2015), available at
https://content.naic.org/sites/default/files/inline-files/MDL074_0.pdf (“A health carrier shall have a process to assure that a
covered person obtains a covered benefit at an in-network level of
benefits, including an in-network level of cost-sharing, from a
nonparticipating provider, or shall make other arrangements
acceptable to the commissioner[.]”).
3 See, e.g., U.S. Nat’l Library of Med., Managed Care,
available at https://medlineplus.gov/managedcare.html (last
visited Sept. 7, 2021).

11
network care, with lower cost-sharing requirements
and out-of-pocket costs when using in-network,
preferred providers. 4 PPOs cover approximately 47
percent of Americans who use employer-sponsored
health plans. 5
Many other individuals using
employer-sponsored plans receive coverage under an
HMO plan, which typically requires members to
receive care from in-network providers. Fewer than
one percent of covered workers use employersponsored plans with no network-based structure.6
High-value provider networks.
Health
insurance providers may also contract with more
selective groups of providers to offer high-value
provider networks. Relying on provider performance
data, health insurance providers can identify medical
providers with a demonstrated ability to deliver
quality health care in an efficient manner. High-value
provider networks offer incentives, such as reduced
cost-sharing, for plan members to obtain care.
High-value provider networks are typically
designed in one of two ways: (1) Health insurance
providers create tiers within an existing network
based on specified performance metrics, including
objective measures of quality care. Plan members who
4 HealthCare.gov, Health Insurance Plan and Network
Types:
HMOs,
PPOs,
and
more,
available
at
https://www.healthcare.gov/what-are-the-different-types-ofhealth-insurance/ (last visited Sept. 7, 2021).
5 Kaiser Family Found., 2020 Employer Health Benefits
Survey, available at https://www.kff.org/report-section/ehbs2020-section-5-market-shares-of-health-plans/ (last visited Sept.
7, 2021).
6 Id.

12
seek care from providers in a higher-performing tier
pay a reduced copayment. (2) Plans create a separate
provider network composed of select, high-value
providers with track records of providing high-quality
patient care. The plan encourages, or requires,
members to seek care within this more focused
provider network.
Pharmacy benefits plans. Network benefit
design is also applied to prescription drug coverage.
The pharmacy benefit plan Respondents challenge is
an example of such a plan. Pet. Br. 6-7. Pharmacy
benefits managers (PBMs)—which contract with
health insurance providers or employer plan sponsors
to manage prescription drug benefits—assemble
networks of retail, specialty, and mail-order
pharmacies where covered members can fill
prescriptions. Drug plans offer members financial
incentives, such as reduced copayments, to fill
prescriptions at in-network pharmacies. Many plans
use mail-order pharmacies as a component of their
networks.
b. All these types of network-based plans achieve
benefits in similar ways. Medical providers and
pharmacies compete to become contracted network
providers with enhanced (or even guaranteed) access
to a health plan’s members. 7 This competition creates
significant incentives for medical providers to offer
lower prices and an expansive set of health care
Joanna Shepherd, Selective Contracting in Prescription
Drugs: The Benefits of Pharmacy Networks, 15 MINN. J. L., SCI.
& TECH. 1027, 1033 (2014).
7

13
services.8 They risk losing patients if they do not join
the network, and stand to gain access to a pool of
patients if they do.
Network formation has several advantages for
health insurance providers, states, employers, and
individual consumers alike. One advantage is cost
savings, which can be significant. 9 Studies using
claims-based modeling have shown that narrower
HMO
network
plans
negotiated
hospital
reimbursement rates 12 percent lower than broader
PPO networks. 10 In addition, average Medicare
Advantage plan bids (which utilize provider networks)
are typically well below traditional Medicare costs—
87 percent less based on recent estimates.11 The cost

Michael A. Morrisey, Competition in Hospital and Health
Insurance Markets: A Review and Research Agenda, 36 HEALTH
SERVS. RSCH. 191, 192 (2001) (“The general theory is that
managed care introduces price competition into health services
markets. Such competition among hospitals, physicians, and
other providers results in lower prices, or at least less rapidly
increasing prices for services.”).
9 Letter from A. Gavil of FTC to Ctrs. for Medicare &
Medicaid Servs. (Mar. 7, 2014) (hereafter “FTC Letter”), available
at
http://www.ftc.gov/system/files/documents/advocacy
_documents/federal-trade-commission-staff-comment-centersmedicare-medicaid-services-regarding-proposed-rule/
140310cmscomment.pdf.
10 Kate Ho & Robin S. Lee, Equilibrium Provider Networks:
Bargaining and Exclusion in Health Care Markets, 109 AM.
ECON. REV. 473, 477 (2019), available at http://www.people.
fas.harvard.edu/~robinlee//papers/EqNetworks.pdf.
11 MedPac, Report to the Congress: Medicare Payment
Policy 368 (Mar. 2021) (hereafter “Report to the Congress”),
8

14
savings have enabled Medicare Advantage enrollees to
access plans offering reduced cost sharing and
supplemental benefits such as vision, dental, and
hearing benefits at no additional premium (beyond the
Medicare Part B premium). 12 And in areas where
Medicare Advantage enrollment is relatively higher,
traditional Medicare spending growth slows as
providers employ Medicare Advantage care guidelines
for their traditional Medicare patients.13
Studies have also shown that basic in-network
incentives for hospitals and specialty physicians can
result in savings for consumers of approximately 10
percent. 14 High-value networks are even more cost
efficient, with studies showing that plan members
save up to 25 percent or more on premium costs
relative to traditional network plans. 15
As to
available at http://medpac.gov/docs/default-source/reports/mar21
_medpac_report_to_the_congress_sec.pdf?sfvrsn=0.
12 Id. at 365.
13 Garret Johnson et al., Recent Growth in Medicare
Advantage Enrollment Associated With Decreased Fee-ForService Spending In Certain U.S. Counties, 35 HEALTH AFFAIRS
1707 (Sept. 2016), available at https://www.healthaffairs.org/
doi/full/10.1377/hlthaff.2015.1468.
14 BlueCross BlueShield of North Carolina, New BCBSNC
Products Offer Cost Savings for Individuals and Employers (Dec.
12, 2012), available at https://mediacenter.bcbsnc.com/news/newbcbsnc-products-offer-cost-241718.
15 Duke Helfand, A Shift Toward Smaller Health Networks,
LOS ANGELES TIMES (Apr. 3, 2011); see also McKinsey Ctr. for
U.S. Health Sys. Reform, Hospital networks: Configurations on
the exchanges and their impact on premiums (Dec. 14, 2013),
available at https://www.mckinsey.com/~/media/mckinsey/dot
com/client_service/healthcare%20systems%20and%20services/p

15
prescription drug costs, network-based drug plans
help individuals and families pay significantly less for
medications. 16 Studies also show that Medicaid
managed care plans have generated significant
savings for state Medicaid programs by negotiating
discounts from pharmaceutical manufacturers and
encouraging the use of generic drugs.17 As a result,
states using managed care plans to administer
Medicaid drug programs have reaped significant
savings compared to states using fee-for-service
programs.18
Savings are also substantial—10-15 percent or
more—for plan members using mail-order pharmacies

dfs/hospital_networks_configurations_on_the_exchanges_and_t
heir_impact_on_premiums.ashx; AHIP, Milliman Report: HighValue Healthcare Provider Networks (July 2014), available at
https://www.ahip.org/milliman-report-high-value-healthcareprovider-networks/.
16 Shepherd, supra note 7, at 1044.
17 See, e.g., Wakely Consulting Grp., LLC, The Value of
Integrated Pharmacy Benefits in Medicaid Managed Care (June
15,
2020),
available
at
https://www.wakely.com/sites/
default/files/files/content/value-integrated-pharmacy-benefitsmedicaid-managed-care-20200615.pdf; AHIP, The Value of
Medicaid Managed Care: Making Drugs More Affordable for
States
and
Taxpayers
(Feb.
2020),
available
at
https://www.ahip.org/the-value-of-medicaid-managed-care.
18 See Centers for Medicare & Medicaid Servs., Trump
Administration Continues to Keep Out-of-Pocket Drug Costs Low
for Seniors (Jul. 29, 2020), available at https://www.cms.gov/
newsroom/press-releases/trump-administration-continues-keepout-pocket-drug-costs-low-seniors.

16
or participating in narrow pharmacy plan networks.19
Consumers want these savings: according to a recent
poll, a majority (58 percent) prefer “less expensive
plans with a limited network of doctors and hospitals”
to “more expensive plans with a broader network of
doctors and physicians.”20
Besides cost savings, network-based managed
care has a proven track record for enhancing patient
care and outcomes. Networks are formed using widely
recognized, evidence-based measures of provider
performance, including the provider standards set by
the National Quality Forum and the Joint
Commission on Accreditation of Healthcare
Organizations.
Health insurance providers can
exclude physicians and hospitals that do not meet
these standards.
Similarly, health insurance providers use an
evaluation tool known as “credentialing” to govern
membership in a network. Credentialing looks at a
provider’s academic background, training, board
certification, professional competence, malpractice
record, and license history. The process helps patients
choose medical providers with the confidence that they
have been carefully vetted.
Pharmaceutical Care Mgmt. Ass’n, Mail-Service and
Specialty Pharmacies Will Save More than $300 Billion for
Consumers, Employers, and Other Payers Over the Next 10 Years
(Sept. 2014), available at https://www.pcmanet.org/wpcontent/uploads/2016/08/pr-dated-09-10-14-visante-pcma-mailand-specialty-savings.pdf; see also FTC Letter, supra note 9.
20 AHIP, Ask the AHIP Experts: Why Provider Networks are
Important (Dec. 2018), available at https://www.ahip.org/ask-theahip-experts-why-provider-networks-are-important/.
19

17
Importantly, when patients obtain care from
their in-network providers, health insurance providers
can assess the delivery of that care and hold medical
providers accountable for both quality and costs. They
can also better facilitate care coordination and disease
management for enrollees, including those with
chronic conditions.
Medicare
Advantage
plans
outperform
traditional Medicare on clinical quality measures, 21
improve survival rates, 22 and reduce hospital
readmissions as well as patient days spent in
rehabilitation facilities and nursing homes.23 Studies
have also found better outcomes for patients with
specific chronic diseases when they are covered by
Medicare Advantage.24

21 Justin W. Timbie et al., Medicare Advantage and FeeFor-Service Performance on Clinical Quality and Patient
Experience Measures: Comparisons from Three Large States, 52
HEALTH SERVS. RSCH. 2038 (Dec. 2017), available at
https://pubmed.ncbi.nlm.nih.gov/29130269/.
22 Aloke K. Mandal et al., Value-Based Contracting
Innovated Medicare Advantage Healthcare Delivery and
Improved Survival, 23 AM. J. MANAGED CARE 41 (Jan. 2017),
available at https://www.ajmc.com/view/value-based-contractinginnovated-medicare-advantage-healthcare-delivery-andimproved-survival.
23 Amit Kumar et al., Comparing post-acute rehabilitation
use, length of stay, and outcomes experienced by Medicare fee-forservice and Medicare Advantage beneficiaries with hip fracture in
the United States: A secondary analysis of administrative data,
PLOSMED (June 2018), available at https://pubmed.ncbi.nlm.
nih.gov/29944655/.
24 Id.

18
Networks benefit patients in other ways as well.
Health insurance providers can use network
membership as an incentive to encourage medical
providers and hospitals to offer additional services and
specialty treatments. The network can thus augment
the number and types of medical services available in
the communities where the health insurance provider
offers coverage.
The availability of in-network
negotiated rates also allows patients to predict more
reliably what treatments will cost, and in turn makes
them more likely to seek out preventative or earlystage care. Evidence demonstrates that these patients
have improved health outcomes.25
Finally, network design helps provide consumers
with a menu of options to suit their particular needs,
both medical and financial. Consumers can choose
broader or narrower networks, with varying levels of
copayments and specialty coverage, based on their
personal circumstances. For example, in the exchange
marketplaces, consumers can choose from dozens of
available plans based on factors including plan level
(from “Bronze” to “Platinum” on the federal exchange),
availability of medical providers, hospital network,
overall cost, and even particular medical needs.26 And

25 Jonathan Gruber & Robin McKnight, Controlling Health
Care Costs Through Limited Network Insurance Plans: Evidence
from Massachusetts State Employees, 8 AM. ECON. J. ECON.
POLICY 219, 221 (May 2016).
26 HealthCare.gov, See Plans & Prices, available at
https://www.healthcare.gov/see-plans/#/ (last visited Sept. 7,
2021).

19
on average, 18 Medicare Advantage plans are
currently available in each county.27
2. Networks Cannot Function Properly
If Plan Members Can Alter Plan
Benefits.
A Court decision creating disparate impact
liability under the Rehabilitation Act and, by
extension, the ACA—at least without restricting its
reach to health plans—will destabilize the basic
principles that help networks function, compromising
cost savings, patient choice, and quality of care. If
disparate impact liability is available, individuals
with disabilities could argue—as they did in this
case—that they can receive “effective treatment” only
from out-of-network providers. Pet. App. 14a. If
successful, those lawsuits would require health
insurance providers to cover that treatment at innetwork prices.
This outcome would effectively
rewrite the carefully designed terms of network-based
plans and interfere with health insurance providers’
ability to contract with hospitals, physicians, and
pharmacies. For instance, an individual could select a
narrower network plan from his or her employer or an
exchange, but then in practice convert that plan into a
wider network or non-network-based plan.
The mere possibility of disparate impact claims
will threaten the ongoing vitality of plan networks.
The economic competition undergirding networks
thrives only if access to a network is controlled.
Medical providers agree to join a network to have
27

See Report to the Congress, supra note 11, at 365.

20
special access to an available pool of patients. They
compete to offer reduced prices to obtain that access.
But if medical providers believe they may be able to
access the same pool of patients regardless, they have
less reason to join networks and less incentive to
discount their prices. In other words, a medical
provider’s cost-benefit calculation is skewed against
networks if it believes those networks can be easily
undermined by individuals seeking to redefine the
terms of their health plans.
Care standards will suffer the same diminished
fate. High-quality providers will have less incentive to
join a network or to maintain the high patient-care
standards that network membership requires. The
end result is that Americans will pay more for
reduced-quality care.
B.

The Risk Of Disparate Impact Liability
Will Undermine Medical Management
Tools, Leading To Increased Costs And
Heightened Risk To Patients.
1. Medical Management Techniques
Ensure That Patients Receive Safe
And Affordable Care.

Permitting disparate impact claims will also
undermine medical management, also known as care
or utilization management. Medical management
includes a number of approaches that are all designed
to protect patient safety; prevent unnecessary,
inappropriate, and potentially harmful care; improve
and better coordinate care; and increase health care
affordability. In general, these tools—as described
below—encourage health care providers to use more

21
affordable, evidence-based, and proven patient care
techniques.
Prior authorization. Prior authorization is a
process for providers to request approval from a health
insurance provider for a particular item or service
before care is delivered to qualify for coverage. The
purpose underlying prior authorization is to confirm
that a treatment is medically necessary and
appropriate for the patient based on clinical evidence.
Health
insurance
providers
require
prior
authorization when medical recordkeeping shows that
medical providers are departing at above-average
rates from evidence-based requirements.
Prior
authorization also alerts health insurance providers
that an enrollee may need additional care, treatment,
or other services. This then allows health insurance
providers to help patients maximize their coverage
while also minimizing any financial risks.
In
designing and applying prior authorization, health
insurance providers use various sources of evidencebased studies, guidelines, and federal standards.28
The benefits of prior authorization are well
established. Prior authorization prevents overuse and
misuse of ineffective, expensive, or risky treatments
and services; protects patients from inappropriate and
potentially harmful care; and promotes efficiency and
cost savings by requiring providers to explore less
costly treatment paths.
For example, medical
providers are required to recommend physical therapy
28 AHIP, Key Results of Industry Survey on Prior
Authorization (June 2020), available at https://www.ahip.org/wpcontent/uploads/Prior-Authorization-Survey-Results.pdf.

22
to a patient with low-back pain before authorizing
expensive imaging tests with potential unnecessary
exposure to radiation; to avoid prescribing drugs for
untested off-label use; and to try non-opioid
approaches—like acupuncture, physical therapy, or
non-opioid pain medications—to manage pain or to
limit opioid dosages or duration.29 Prior authorization
is also used when issuing durable medical equipment
(such as wheelchairs, walkers, scooters, and oxygen
equipment) to address the rampant problem of fraud,
abuse, and other misconduct in connection with those
devices. 30
Step therapy. Similar to prior authorization,
step therapy serves a dual function of improving
patient safety and reducing unnecessary costs. This
medical management tool requires providers to use a
safe, effective, and less costly medication before
prescribing a higher cost drug. The vast majority of
commercial health plans, as well as many state
Medicaid programs and Medicare Part D, use steptherapy programs.
Typically, these programs
encourage prescribers and patients to use generic
See Deborah Dowell, Tamara Haegerich & Roger Chou,
CDC Guideline for Prescribing Opioids for Chronic Pain – United
States
2016
(Mar.
18,
2016),
available
at
http://dx.doi.org/10.15585/mmwr.rr6501e1.
30 U.S. Dep’t of Justice, Federal Indictments & Law
Enforcement Actions in One of the Largest Health Care Fraud
Schemes Involving Telemedicine and Durable Medical
Equipment Marketing Executives Results in Charges Against 24
Individuals Responsible for over $1.2 Billion in Losses (Apr. 9,
2019), available at https://www.justice.gov/opa/pr/federalindictments-and-law-enforcement-actions-one-largest-healthcare-fraud-schemes.
29

23
medications as first-line treatment before progressing
to brand-name drugs.
Health insurance providers use an evidencebased sequence to promote treatment effectiveness
and affordability. This process includes obtaining
input from plan pharmacy and therapeutics
committees (composed of doctors, pharmacists, and
other experts in pharmacy matters), FDA guidelines,
and evidence gathered from clinical trials and
research. As a result, step therapy helps ensure that
patients are prescribed drugs that will provide the
greatest clinical benefits with the least accompanying
risks.
Prescription formularies.
Prescription
formularies perform a similar function to step therapy,
except they use pricing incentives instead of mandates
to enhance access to safer, less expensive prescription
drugs. As described in the Petition (at 9-10), drug
formularies are one of the most essential tools for
managing drug costs. For example, most Medicare
Part D plans use a five-tier formulary with differential
cost sharing between preferred and non-preferred
drugs, and a specialty tier for high-cost drugs. 31
Formularies create tiers reflecting different prices,
level of cost-sharing, or availability via specialty
pharmacies.
Like other medical management
protocols, formulary tiers draw on current medical
evidence and the input of the plan’s pharmacy and
therapeutics committee. Drugs are placed in tiers
based on their safety, efficacy, and cost-effectiveness.
A health insurance provider’s ability to manage its
31

Report to the Congress, supra note 11, at 409.

24
own formularies based on clinical input significantly
improves patient safety, reduces drug spending, and,
in turn, limits patient cost-sharing and insurance
premiums.
“Centers of Excellence” and tiering. Similar
to the formulary concept, health insurance providers
have begun creating financial incentives for patients
to obtain care from certain recognized, high-quality
providers. For example, some health benefit plans will
cover certain medical or surgical services only if
performed at a recognized and contracted Center of
Excellence. These facilities have a proven track record
of offering high-quality care with minimum
complications and use experienced, qualified
clinicians. Similarly, other health benefit plans use
tiers for medical providers (as well as for prescription
drugs), and reduce copayments for members who
obtain care from providers and facilities in a higherperforming tier. These protocols, once again, reduce
unnecessary costs while directing patients to the
highest quality medical care available.
2. Inviting Disparate Impact
Challenges To Medical Management
Techniques Will Harm Plan
Members And Increase Costs.
If the Court holds that the Rehabilitation Act
permits disparate impact claims without limitation, it
will open the door to challenges to facially neutral
medical management techniques, like Petitioners’
prescription formulary. Pet. App. 7a-8a. Individuals
with disabilities can assert that these techniques
impede access to “effective treatment” for their

25
conditions. As a result, individuals with disabilities
could effectively “change the terms of their benefit
plan” to expand formularies, change prescription drug
and other treatment tiers, or exempt themselves from
other core medical management aspects of benefit
design. Id. at 42a.
Limiting the use of these techniques, even as to
only some individuals, will have serious economic
consequences. Over $900 billion is wasted annually on
unnecessary medical treatment. If health insurance
providers cannot employ medical management
practices, that amount will surge even higher. And
the costs to health insurance providers and their
members will be substantial.
Consider prescription drug plans alone. Over
$450 billion was spent on prescription drugs in 2015—
constituting 16.7 percent of overall health care
spending—and medication costs are increasing
dramatically every year. 32
Undermining the
techniques that help manage these costs will increase
the economic burden on insured populations. Indeed,
individuals and families are likely to bear the brunt of
these economic consequences: The Congressional
Budget Office estimates that health benefit plan
premiums will rise by 5 to 10 percent or more if plans

U.S. Dep’t of Health and Human Servs., Observations on
Trends in Prescription Drug Spending 2, 7-8 (Mar. 2016),
available
at
https://aspe.hhs.gov/system/files/pdf/187586/
Drugspending.pdf.
32

26
cannot use common medical management techniques
to manage prescription drug costs.33
The harm to patients will be even more
significant.
Medical management ensures that
patients receive safe, effective, high-quality care
consistent with medical evidence. Patients typically
are exempted from these practices only when medical
evidence indicates that a different treatment practice
is warranted. However, the prospect of liability for
disparate impact discrimination will effectively
require exemptions from such practices for nonevidence-based reasons, like personal convenience or
preferences for certain kinds of medical services (such
as prescription counseling from a community
pharmacist rather than CVS Pharmacy personnel, as
Respondents here argued). Pet. App. 14a, 28a.
The result will be that fewer patients receive
purely evidence-based medical treatment and more
patients are exposed to riskier and potentially
unwarranted medical interventions. This is not an
abstract concern: Studies demonstrate that at least
15-30 percent of medical care is unnecessary and that
patient requests are a primary reason for
overtreatment. 34 The threat of disparate impact
liability will make it more difficult for health
insurance providers to use common features of
Congressional Budget Office, Key Issues in Analyzing
Major Health Insurance Proposals 67 (Dec. 2008), available at
https://www.cbo.gov/sites/default/files/cbofiles/ftpdocs/99xx/doc9
924/12-18-keyissues.pdf.
34 Heather Lyu, Overtreatment in the United States, PLOS
ONE (Sept. 6, 2017), available at https://www.ncbi.nlm.nih.gov/
pmc/articles/PMC5587107/.
33

27
benefits plan design—a result that will diminish
patient care, not improve it.
CONCLUSION
The judgment of the court of appeals should be
reversed.
Respectfully submitted.
Julie Simon Miller
Thomas M. Palumbo
AMERICA’S HEALTH
INSURANCE PLANS

September 10, 2021

Pratik A. Shah
Counsel of Record
Aileen M. McGrath
AKIN GUMP STRAUSS
HAUER & FELD LLP

